APPENDICES:
Appendix A - Per Curiam of the United States Court of Appeals for the
Fourth Circuit; Unpublished Opinion, Notice of Judgment, Judgment:

20

FILED: December 29, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-2047,

Dora Adkins v. Dulles Hotel Corporation
1:20-cv-00361-RDA-IDD

NOTICE OF JUDGMENT
Judgment was entered on this date in accordance with Fed. R. App. P. 36. Please be
advised of the following time periods:
PETITION FOR WRIT OF CERTIORARI: The time to file a petition for writ of
certiorari runs from the date of entry of the judgment sought to be reviewed, and not
from the date of issuance of the mandate. If a petition for rehearing is timely filed m
the court of appeals, the time to file the petition for writ of certiorari for all parties runs
from the date of the denial of the petition for rehearing or, if the petition for rehearing
is granted, the subsequent entry of judgment. See Rule 13 of the Rules of the Supreme
Court of the United States; www.supremecourt.gov.
VOUCHERS FOR PAYMENT OF APPOINTED OR ASSIGNED COUNSEL:
Vouchers must be submitted within 60 days of entry of judgment or denial of
rehearing, whichever is later. If counsel files a petition for certiorari, the 60-day period
runs from filing the certiorari petition. (Loc. R. 46(d)). If payment is being made from
CJA funds, counsel should submit the CJA 20 or CJA 30 Voucher through the CJA
eVoucher system. In cases not covered by the Criminal Justice Act, counsel should
submit the Assigned Counsel Voucher to the clerk's office for payment from the
Attorney Admission Fund. An Assigned Counsel Voucher will be sent to counsel
shortly after entry of judgment. Forms and instructions are also available on the court's
web site, www.ca4.uscourts.gov, or from the clerk's office.
BILL OF COSTS: A party to whom costs are allowable, who desires taxation of
costs, shall file a Bill of Costs within 14 calendar days of entry of judgment. (FRAP
39, Loc. R. 39(b)).

FILED: December 29, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-2047
(1:20-cv-00361-RDA-IDD)
DORAL. ADKINS
Plaintiff - Appellant
v.
DULLES HOTEL CORPORATION
Defendant - Appellee

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed as modified.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-2047
DORA L. ADKINS,
Plaintiff - Appellant,
v.
DULLES HOTEL CORPORATION,
Defendant - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Rossie David Alston, Jr., District Judge. (1:20-cv-00361-RDA-IDD)
Submitted: December 22, 2020

Decided: December 29, 2020

Before NIEMEYER, FLOYD, and RICHARDSON, Circuit Judges.
Affirmed as modified by unpublished per curiam opinion.

Dora L. Adkins, Appellant Pro Se. Richard W. Souther, LAW OFFICE OF RICHARD W.
SOUTHER, Fairfax, Virginia, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Dora L. Adkins appeals the district court’s orders dismissing her civil action for lack
of subject matter jurisdiction and denying reconsideration. We have reviewed the record
and find no reversible error. Accordingly, we affirm for the reasons stated by the district
court. Adkins v. Dulles Hotel Corp., No. l:20-cv-00361-RDA-IDD (E.D. Va. Sept. 16,
2020 & Sept. 25, 2020). However, because the dismissal was for lack of subject matter
jurisdiction, we modify the judgment to reflect that the dismissal is without prejudice. See
S. Walk at Broadlands Homeowner’s Ass’n v. OpenBand at Broadlands, LLC, 713 F.3d
175, 185 (4th Cir. 2013) (“A dismissal for .. . [a] defect in subject matter jurisdiction . . .
must be one without prejudice, because a court that lacks jurisdiction has no power to
adjudicate and dispose of a claim on the merits.”). We grant Adkins’ motion to file an
amended informal brief and deny as moot her motion to expedite. We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
AFFIRMED AS MODIFIED

2

Appendix B - In the U. S. District Court for the Eastern District of
Virginia, Orders; Order, Dated, September 16, 2020 and Order, Dated,
September 25, 2020:

21

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 1 of 18 PagelD# 1063

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
DORA L. ADKINS,
Plaintiff,
v.
DULLES HOTEL CORPORATION,
Defendant.

)
)
)
)
)
)
)
)
)

Civil Action No. l:20-cv-00361 (RDA/IDD)

ORDER
This matter comes before the Court on Defendant Dulles Hotel Corporation’s
(“Defendant”) Motion to Dismiss for Lack of Jurisdiction (Dkt. 17); Defendant’s Motion to
Dismiss for Failure to State a Claim (Dkt. 30); Plaintiff Dora L. Adkins s ( Plaintiff*) Corrected
Motion for Leave of Court to File Amended Motion for Default Judgment (“Second Motion for
Leave to Amend”) (Dkt. 46); Plaintiffs Motion for Leave from the Court for Reconsideration of
its Order Dated, July 30, 2020 (“Motion for Reconsideration”) (Dkt. 48); Plaintiffs Motion to
Withdraw the Motion for Leave from the Court for Reconsideration of its Order Dated, July 30,
2020 (“Motion to Withdraw”) (Dkt. 52); Plaintiffs motion entitled “Amended on August 14,2020
to the Motion for Leave from the Court for Reconsideration of its Order Dated, July 30, 2020”
(“Amended Motion for Reconsideration”) (Dkt. 56); and Plaintiffs Motion for Summary
Judgment (“Summary Judgment Motion”) (Dkt. 61).
Considering Plaintiffs Amended Complaint Against Dulles Hotel Corporation (“Amended
Complaint”) (Dkt. 7); Defendant’s Motion to Dismiss for Lack of Jurisdiction (Dkt. 17); Plaintiffs
Brief in Opposition to Motion to Dismiss for Lack of Jurisdiction (“Opposition to Motion to
Dismiss for Lack of Jurisdiction”) (Dkt. 20-1) and the accompanying attachments (Dkt. Nos. 20;

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 2 of 18 PagelD# 1064

20-2; 20-3); Defendant’s Reply to Opposition to Motion to Dismiss for Lack of Jurisdiction
(“Reply in Support of Motion to Dismiss for Lack of Jurisdiction”) (Dkt. 22); Defendant’s Motion
to Dismiss for Failure to State a Claim (Dkt. 30); Plaintiff’s Brief in Opposition to Defendant’s
Motion to Dismiss for Failure to State a Claim (“Opposition to Motion to Dismiss for Failure to
State a Claim”) (Dkt. 41); Plaintiffs Second Motion for Leave to Amend (Dkt. 46); Plaintiff’s
Motion for Reconsideration (Dkt. 48); Defendant’s Opposition to Motion to Reconsider Order
Denying Plaintiff’s Motions for Default Judgement (“Opposition to Motion for Reconsideration”)
(Dkt. 51); Plaintiff’s Motion to Withdraw the Motion for Leave from the Court for Reconsideration
of its Order Dated July 30,2020 (“Motion to Withdraw”) (Dkt. 52); Plaintiffs Cancellation of the
Withdrawal on August 10, 2020 (“Cancellation of Motion to Withdraw”) (Dkt. 54); Plaintiff’s
Amended Motion for Reconsideration (Dkt. 56); Defendant’s Opposition to Plaintiffs Amended
Motion to Reconsider Order Denying Plaintiffs Motions for Default Judgment (“Opposition to
Amended Motion for Reconsideration”) (Dkt. 58); and Plaintiff’s Summary Judgment Motion
(Dkt. 61), and for the following reasons, it is hereby ORDERED that Defendant’s Motion to
Dismiss for Lack of Jurisdiction (Dkt. 17) is GRANTED; Defendant’s Motion to Dismiss for
Failure to State a Claim (Dkt. 30) is DENIED as moot; Plaintiff’s Second Motion for Leave to
Amend (Dkt. 46) is DENIED as moot; Plaintiff’s Motion for Reconsideration (Dkt. 48) is
DENIED; Plaintiffs Motion to Withdraw (Dkt. 52) is DENIED as moot; Plaintiffs Amended
Motion for Reconsideration (Dkt. 56) is DENIED; and Plaintiff’s Summary Judgment Motion
(Dkt. 61) is DENIED as moot.

2

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 3 of 18 PagelD# 1065

I. BACKGROUND
A. Factual Background
The facts as alleged in Plaintiff’s Amended Complaint are taken as true for the purposes of
evaluating the instant Motions to Dismiss. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009); Bell Atl
Corp. v. Twombly, 550 U.S. 544,555 (2007).
Plaintiff stayed at Defendant’s Hilton Washington Dulles Airport hotel (“the Hotel”),
located in Herndon, Virginia, non-consecutively from May of 2019 through March of 2020. Dkt.
7, f 1. Plaintiff timely paid a total of approximately $30,000.00 over an eleven-month timeframe
for guest rooms in the Hotel, accommodations including daily breakfast in the Hotel’s Old Ox
Grille Restaurant (“the Restaurant”), and breakfast and dinner in the Hotel’s Executive Lounge.
Id. at H 2.
In her Amended Complaint, Plaintiff asserts various allegations.

Plaintiff accuses

Defendant of providing her with sixteen different guest rooms that were “filthy.” Id. at U 3. She
asserts that as a guest at the Hotel, she breathed in mold, and that the guest rooms at the Hotel had
extremely dirty carpets with “pet feces and urine” that could potentially cause Plaintiff “respiratory
issues.” Id. Plaintiff also alleges when she resided in the Hotel’s guest room #571 during the
winter months, that room did not have a heating system. Id. Plaintiff further claims that the Hotel’s
employees never cleaned the Hotel’s Executive Lounge computer area nor wiped down the
cabinets there. Id. Plaintiff also contends that after she reported her concerns of the cleanliness
of the Executive Lounge, on March 9,2020, Mario Alarcon, the Hotel’s Executive Housekeeper,
merely provided Plaintiff with “Clorox wipes.” Id. Plaintiff avers that, like those in the guest
rooms she stayed in, the carpets in the common areas of the Hotel were “infested with dog feces
[and] urine” that employees never cleaned up. Id.

3

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 4 of 18 PagelD# 1066

Plaintiffs central allegation, though, is that Defendant intentionally contaminated her food
approximately nine times, thus giving Plaintiff food poisoning. Id at

3, 4. The first alleged

incident of premeditated food contamination aimed at poisoning Plaintiff purportedly occurred on
February 16,2020, when Plaintiff went to the Restaurant for breakfast. Id at f 5. Plaintiffs also
contends that on February 17,2020, Defendant’s employees intentionally contaminated her food
in an attempt to kill her. Id. at ^ 4. Plaintiff asserts on that day, the Hotel’s employees
contaminated the potatoes served at the restaurant’s breakfast buffet bar. Id. atf 5. Plaintiff alleges
that the food contamination aimed at her was “premeditated” “because other [g]uests and/or
patrons of the Hotel were ordering from the [Restaurant’s] menu and Plaintiff ate from the
[b]reakfast [bjuffet [b]ar.” Id. at f 6.
Plaintiff contends that on February 16, 2020, February 17, 2020, and throughout the
duration of her stay at the Hotel, the Hotel’s employees contaminated her food at the Restaurant
in the following ways. The employees wore their aprons in the restroom; handled guests’ used
plates, utensils, glasses and menus; never washed their hands before providing to-go containers to
guests; handled and/or changed trash and recycling bins and returned to handling food without
washing their hands; coughed directly inside the restaurant without covering their mouths with
their arms when sick with a cold and did not use tissues when their noses were running; allowed
guests to return to the buffet bars with their used plates and utensils; allowed guests to eat directly
from the buffet bars with their hands; allowed unattended children to pick up food items from the
buffet bars and then return the food items back to the bars; let adults return food items back to the
buffet bar after first taking those food items to their tables; allowed guests to transport food from
the Executive Lounge using a luggage cart; never fixed the broken door to the Executive Lounge,
thus making entry available to the public; one employee tapped the dipper for soups into the palm

4

Case l;20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 5 of 18 PagelD# 1067

of his hands and then placed the dipper into the soups; allowed guests to have pets inside their
guest rooms; and did not use the proceeds from the “Pet Clean-Up Fee” that guests are charged to
clean up pets’ feces and urine. Id at HI 8,16,25.
Plaintiff also attempts to link Defendant’s alleged actions to the actions of other entities
purportedly directed at her. These other entities include Chipotle Mexican Grill and Starbucks
Corporation, which engaged in 600 instances of food contamination and/or food poisoning. Id. at
HU 7,9,13,17,22,26.
Plaintiff further claims that, as a result of Defendant contaminating her food, Plaintiff
suffered the following symptoms: extreme emotional distress, and severe and debilitating physical
pain in her stomach that has caused severe swelling and itching, violent and severe vomiting, and
rectal bleeding. Id. at HH 3-4. Plaintiff alleges that she has consequently become bed-ridden and
was thus unable to file her Complaint until February 2020. Id. at HU 4,31-32. Plaintiff also alleges
that she has gone without food or a place to live due to her fear of food poisoning and chemical
poisoning. Id at HU 8,26.
B. Procedural Background
On March 13, 2020, Plaintiff filed her original Complaint, which she later amended on
April 10,2020. Dkt. Nos. 1; 7. On May 14,2020, Defendant was served with Plaintiffs Amended
Complaint. Dkt. 16. On June 24, 2020, the Court ordered that Defendant file its Answer within
20 days. Dkt. 25.
On June 2, 2020, Defendant filed its Motion to Dismiss for Lack of Jurisdiction. Dkt. 17.
On June 12,2020, Plaintiff filed her Opposition to Motion to Dismiss for Lack of Jurisdiction, and
on June 17, 2020, Defendant filed its Reply in Support of Motion to Dismiss for Lack of
Jurisdiction. Dkt. Nos. 20-1; 22.

5

Case 1:20-CV-00361-RDA-1DD Document 65 Filed 09/16/20 Page 6 of 18 PagelD# 1068

In compliance with the Court’s June 24,2020 order, on July 14,2020, Defendant filed its
Answer, which incorporated its Motion to Dismiss for Failure to State a Claim. Also, on July 14,
2020, Defendant separately filed its Motion to Dismiss for Failure to State a Claim. Dkt. Nos. 30;
31. In response, on July 23,2020, Plaintiff filed her Opposition to Motion to Dismiss for Failure
to State a Claim. Dkt. 41.
Subsequently, Plaintiff filed her first motion for default judgment. Dkt. 26. Plaintiff
subsequently filed two more motions for default judgment— on July 17,2020, she filed her second
motion for default judgment, Dkt. 35, and on July 20,2020, she filed her third motion for default
judgment. Dkt. Nos. 35; 38. Then, on July 29, 2020, Plaintiff filed her first motion for leave to
amend. Dkt. 43. On July 30, 2020, the Court ordered that Plaintiffs first motion for default
judgment, second motion for default judgment, third motion for default judgment, and first motion
for leave to amend be denied. Dkt. 45. Later that same day, Plaintiff filed her Second Motion for
Leave to Amend. Dkt. 46.
On August 5,2020, Plaintiff filed her Motion for Reconsideration. Dkt. 48. On August 6,
2020, Defendant filed its Opposition to Motion for Reconsideration. Dkt. 51. On August 10,
2020, Plaintiff filed her Motion to Withdraw, but then on August 11, 2020, she filed her
Cancellation of Motion to Withdraw. Dkt. Nos. 52; 54.
Yet, Plaintiff filed an Amended Motion for Reconsideration, Dkt. 56, to which Defendant
opposed, Dkt. 58.
Defendant’s Motion to Dismiss for Lack of Jurisdiction (Dkt. 17); Defendant’s Motion to
Dismiss for Failure to State a Claim (Dkt. 30); Plaintiffs Second for Leave to Amend (Dkt. 46);
Plaintiffs Motion for Reconsideration (Dkt. 48); Plaintiffs Motion to Withdraw (Dkt. 52); and
Plaintiffs Amended Motion for Reconsideration (Dkt. 56), are all ripe for resolution. Because

6

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 7 of 18 PagelD# 1069

oral argument would not aid in the decisional process, in accordance with Local Civil Rule 7(J),
this Court will decide each of these motions based on the briefs.
II. STANDARD OF REVIEW
A. Motion to Dismiss for Lack of Jurisdiction
Pursuant to Rule 12(b)(1) of the Federal Rules of Civil Procedure, an action must be
dismissed if the court lacks subject matter jurisdiction. Fed. R. Civ. P. 12(b)(1). The burden of
proving subject matter jurisdiction lies with the plaintiff, as the party asserting such jurisdiction.
See J.E.C.M. ex rel., 352 F. Supp. 3d 559, 575 (E.D. Va. 2018) (citing Adams v. Bain, 697 F.2d
1213,1219 (4th Cir. 1982)).
Challenges to subject matter jurisdiction under Federal Rule of Civil Procedure 12(b)(1)
may be either facial or factual. See id Under a facial challenge, a defendant asserts that:
a complaint simply fails to allege facts upon which subject matter jurisdiction can
be based[,]... all the facts alleged in the complaint are assumed to be true and the
plaintiff, in effect, is afforded the same procedural protection as he would receive
under a Rule 12(b)(6) consideration.
Id
Accordingly, where a defendant disputes the existence of subject matter jurisdiction under
a factual challenge, “the court may consider evidence outside the complaint ‘without converting
the proceeding to one for summary judgment.”’ Id.

Under this method of attack, [n]o

presumptive truthfulness attaches to the plaintiffs allegations, and the existence of disputed
material facts will not preclude the trial court from evaluating for itself the merits ofjurisdictional
claims.” A. W. ex rel. Wilson v. Fairfax Cty. Sch Bd, 548 F. Supp. 2d 219, 221 (E.D. Va. 2008)
(quoting Mortensen v. First Fed Sav. & Loan Ass % 549 F.2d 884, 891 (3d Cir. 1977)).
Evaluating Defendant’s Rule 12(b)(1) Motion to Dismiss for Lack of Jurisdiction, this case
appears to fall into the latter category.
7

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 8 of 18 PagelD# 1070

B. Motion to Dismiss for Failure to State a Claim
A Federal Rule of Civil Procedure 12(b)(6) motion should be granted unless an adequately
stated claim is “supported by showing any set of facts consistent with the allegations in the
complaint.” Bell Alt. Corp. v. Twombly, 550 U.S. 544,561 (2007) (internal citations omitted); see
Fed. R. Civ. P. 12(b)(6). “A pleading that offers ‘labels and conclusions’ or ‘a formulaic recitation
of the elements of a cause of action will not do.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Twombly, 550 U.S. at 555). A complaint is also insufficient if it relies upon “‘naked
assertion^]’ devoid of‘further factual enhancement.’” Id. (quoting Twombly, 550 U.S. at 557).
To survive a Rule 12(b)(6) motion to dismiss, a complaint must set forth “a claim to relief
that is plausible on its face.” Id; Twombly, 550 U.S. at 570. A claim is facially plausible “when
the plaintiff pleads factual content that allows the [C]ourt to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Iqbal, 556 U.S. at 678 (citing Twombly, 550 U.S.
at 556). The Court need not accept “[c]onclusory allegations regarding the legal effect of the facts
alleged.” Labram v. Havel, 43 F.3d 918,921 (4th Cir. 1995); see also E. Shore Mkts., Inc. vJ.D.
Assoc. Ltd. P'ship, 213 F.3d at 180 (“[w]hile we must take the facts in the light most favorable to
the plaintiff; we need not accept the legal conclusions drawn from the facts .... Similarly, we
need not accept as true unwarranted inferences, unreasonable conclusions, or arguments.”).
In considering a Rule 12(b)(6) motion, the Court must construe the complaint in the light
most favorable to the plaintiff, read the complaint as a whole, and take the facts asserted therein
as true. E. Shore Mkts., Inc., 213 F.3d 175, 180 (4th Cir. 2000); Mylan Lab., Inc. v. Matkari, 7
F.3d 1130, 1134 (4th Cir. 1993). In addition to the complaint, the Court may also examine
“documents incorporated into the complaint by reference, and matters of which a court may take
judicial notice.” Tellabs, Inc. v. Maker Issues & Rights, Ltd., 551 U.S. 308,322 (2007).

8

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 9 of 18 PagelD# 1071

That a pro se complaint should be liberally construed neither excuses a pro se plaintiff of
her obligation to “dear the modest hurdle of stating a plausible claim” nor transforms the court
into her own advocate. Green v. Sessions, No. l:17-cv-01365, 2018 WL 2025299, at *8 (E.D.
Va. May 1,2018), aff’d, 744 F. App’x 802 (4th Cir. 2018). Moreover, the Court is not required to
accept “obscure or extravagant claims” in a pro se complaint as plausible. Weller v. Dep 't ofSoc.
Servs., 901 F.2d 387, 390-91 (4th Cir. 1990) (quoting Beaudett v. Hampton, 775 F.2d 1274, 1277
(4th Cir. 1985)).
C. Motion for Reconsideration
Pursuant to Federal Rule of Civil Procedure 59(e), a party may move “to alter or amend a
judgment... no later than 28 days after the entry of the judgment.” Fed. R. Civ. P. 59(e). Whether
to grant a motion for reconsideration “is within the sole discretion of the Court....” United States
v. Dickerson, 971 F. Supp. 1023, 1024 (E.D. Va. 1997). The Fourth Circuit has recognized three
distinct grounds on which to grant a Rule 59(e) motion: “(1) to accommodate an intervening
change in controlling law; (2) to account for new evidence not available at trial; or (3) to correct a
clear error of law or prevent manifest injustice.” Hutchinson v. Staton, 994 F.2d 1076, 1081 (4th
Cir. 1993).
“In general, reconsideration of a judgment after its entry is an extraordinary remedy which
should be used sparingly.” Pac. Ins. Co. v. Am. Nat’l Fire Ins. Co., 148 F.3d 396, 403 (4th Cir.
1998) (citation and internal quotation marks omitted). Under a Rule 59(e) motion, the moving
party is not permitted to “raise arguments which could have been raised prior to the issuance of
the judgment.” Id. Neither may the moving party merely request the court to “rethink what the
[cjourt ha[s] already thought through-nightly or wrongly.” Dickerson, 971 F. Supp. at 1024
(citing Above the Belt, Inc. v. MelBohannan Roofing, Inc., 99 F.R.D. 99,101 (E.D. Va. 1983)).

9

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 10 of 18 PagelD# 1072

III. ANALYSIS
Before the Court are six motions: Defendant’s Motion to Dismiss for Lack of Jurisdiction,
Defendant’s Motion to Dismiss for Failure to State a Claim, Plaintiffs Second Motion for Leave
to Amend, Plaintiff’s Motion for Reconsideration, Plaintiffs Motion to Withdraw, and Plaintiffs
Amended Motion for Reconsideration. Dkt. Nos. 17; 30; 46; 48; 52; 58. First, Defendant brought
its Motion to Dismiss for Lack of Jurisdiction, asserting that the Court lacked subject-matter
jurisdiction over the action. Dkt. 17. Following this Court’s June 24, 2020 Order that allowed
Defendant to file its Answer within 20 days of that Order, Defendant filed its Answer, which
incorporated its Motion to Dismiss for Failure to State a Claim. Dkt. Nos. 25; 31. Defendant also
filed its Motion to Dismiss for Failure to State a Claim separately, asserting that Plaintiffs
Amended Complaint fails to allege facts that state a plausible claim for relief for intentional
infliction of emotional distress. Dkt. 30.
Plaintiff subsequently filed a series of motions for default judgment, contending that
Defendant improperly filed its Answer and its Motion to Dismiss for Failure to State a Claim 40
days after the Fed. R. Civ. P. 12(a)(l)(A)(i) deadline had elapsed. See Dkt. Nos. 26; 35; 38; 43.
On July 30,2020, the Court entered an Order denying each of these motions. Dkt. 45. Later that
same day, though, Plaintiff filed her Second Motion for Leave to Amend, which reiterated the
arguments set forth in her three previously-filed motions for default judgment and her first motion
for leave to amend. Dkt. 46. Additionally, Plaintiff filed her Motion for Reconsideration, urging
the Court to find Defendant in default because Defendant should have submitted its Answer and
Motion to Dismiss for Failure to State a Claim alongside its preliminary motion to dismiss before
the purported June 4,2020 deadline. Dkt. 48.

10

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 11 of 18 PagelD# 1073

Prior to considering the aforementioned motions, it is important to note that Plaintiffs
filings in the instant case fit squarely within her pattern of filing frivolous pleadings and motions
in federal and state courts in Virginia. See, e.g., Adkins v, HBL, LLC, No. 1:17-cv-774,2017 WL
4484259 (E.D. Va. Aug. 11,2017); Adkins v. Pub. Storage, No. l:16-cv-1556,2017 WL 3449583
(E.D. Va. Jan. 24, 2017); Adkins v. Whole Foods Mkt. Grp., Inc., No. l:16-cv-00031, 2016 WL
1367170 (E.D. Va. Apr. 5,2016); see also Adkins v. CP/IPERS Arlington Hotel LLC, 799 S.E.2d
929,930 (Va. 2017) (observing that Plaintiff “has filed at least 41 pro se civil actions in the circuit
courts of Northern Virginia, including 20 cases in the Circuit Court of Fairfax County, 17 cases in
the Circuit Court of the City of Alexandria, and four cases in the Circuit Court of Arlington
County”). This string of lawsuits that Plaintiff filed in Virginia even led the Supreme Court of
Virginia to admonish her for “(1) filing duplicative, vexatious lawsuits, (2) without any objective
good faith basis, and (3) at the expense of the court system and opposing parties.” Adkins, 799
S.E.2d at 933. Even in light of the aforementioned 12(b)(6) standard and giving due deference to
Plaintiff at this stage of litigation, Plaintiff’s Amended Complaint consists of numerous outrageous
and unsubstantiated claims, such as that Defendant intended to kill Plaintiff by contaminating her
food and that Defendant, and other entities who are not parties to this action, were involved in over
600 cases of food poisoning directed towards Plaintiff. Dkt. 7,

4, 7, 9, 13, 17, 22, 26.

Furthermore, the Court finds that Plaintiffs Second Motion to Amend is duplicative of her motions
for default judgment and first motion to amend, and that Plaintiff’s Motion for Reconsideration
and Amended Motion for Reconsideration are meritless. The Court cautions Plaintiff against
continuing to file such frivolous pleadings and motions, as doing so may result in this Court
imposing sanctions against Plaintiff pursuant to Federal Rule of Civil Procedure 11(c). See Fed.
R. Civ. P. 11(c).

11

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 12 of 18 PagelD# 1074

A. Motion to Dismiss for Lack of Jurisdiction
Defendant first moves to dismiss the action pursuant to Rule 12(b)(1) of the Federal Rules
of Civil Procedure on the ground that this Court does not have diversity jurisdiction because the
parties are not completely diverse. Dkt. 17. Plaintiff s Virginia citizenship is undisputed—both
parties agree that she is a citizen of Virginia because she resides in Fairfax County, Virginia. See
Dkt. Nos. 17,3; 20-1,1. The critical point of contention here is whether Defendant is also a citizen
of Virginia.
Defendant asserts that, pursuant to 28 U.S.C. § 1332(c)(1), Defendant is a citizen of
Virginia because it was incorporated under the laws of Virginia. 28 U.S.C. § 1332(c)(1).
Furthermore, Defendant’s principal place of business is in Virginia, given that its only business
operation is the Hotel in Herndon, Virginia, and the activities of the Hotel are directed, controlled,
and coordinated by the General Manager of the Hotel, who is also located in Herndon, Virginia.
Dkt. 17,3.
Plaintiff, however, contends that Defendant is not a citizen of Virginia as its principal place
of business is in California. Dkt. 20-1, 2-6. Plaintiff argues that Defendant’s principal office is
located at 433 California Street, 7th Floor, San Francisco, California 94104-2011. Id. at 2.
Moreover, Plaintiff avers that Defendant’s officers who direct, control, and coordinate Defendant’s
activities all work in Defendant’s principal office in San Francisco, California. Id. at 4-6. Those
officers include: Lawrence Yuinam Lui, Defendant’s President; Joyce Marie Weible, Defendant’s
Secretary; Julius Helvey III, Defendant’s Treasurer; and Gorretti Lui (whose title is unknown). Id.
at 4-5. Plaintiff also notes that although the General Manager of the Hotel in Herndon, Virginia
works from the Hotel in Virginia, the General Manager is not one of Defendant’s principals. Id.
at 5; see 20-3,8.

12

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 13 of 18 PagelD# 1075

Pursuant to 28 U.S.C. § 1332(a)(1), this Court has diversity jurisdiction over “all civil
actions where the matter in controversy exceeds ... $75,000 ... and is between ... citizens of
different States.” 28 U.S.C. § 1332(a)(1). Furthermore, 28 U.S.C. § 1332(c)(1) establishes that a
corporation is “deemed to be a citizen of every State ... by which it has been incorporated and of
the State . . . where it has its principal place of business. . . .” 28 U.S.C. § 1332(c)(1). In
determining a corporation’s principal place of business, the Supreme Court, “in an effort to find a
single, more uniform interpretation of the statutory phrase [principal place of business],” adopted
the “nerve center” approach in Hertz Corp. v. Friend, 559 U.S. 77, 92 (2010). Under this test, a
corporation’s principal place of business is “the place where a corporation’s officers direct, control,
and coordinate the corporation’s activities.” Hertz, 559 U.S. at 92—93. The Supreme Court in
Hertz, further noted that:
in practice^ the principal place of business] should normally be the place where the
corporation maintains its headquarters—provided that the headquarters is the actual
center of direction, control, and coordination, i.e., the ‘nerve center,’ and not simply
an office where the Corporation holds its board meetings ....
Id. at 93.
This Court finds that pursuant to 28 U.S.C. § 1332(c)(1), Defendant is a citizen of Virginia
both because Defendant was incorporated under the laws of Virginia and because Defendant’s
principal place of business is in Virginia, consistent with the Supreme Court’s the “nerve center”
approach. While Defendant’s principal office is located in San Francisco, California, that office
does not appear to be “the actual center of direction, control, and coordination” of Defendant’s
business activities. Id. (emphasis added). Defendant’s sole business operation is the Hotel in
Herndon, Virginia. Dkt. 17, 3. Irrespective of whether the Hotel’s General Manager holds the
title of “principal,” the General Manager, who works at the Hotel, not any of Defendant’s officers
who work at its principal office, is the individual who directs, controls, and coordinates
13

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 14 of 18 PagelD# 1076

Defendant’s business activities. Id.’, see also Dkt. 20-3,8-9. Accordingly, because the Court finds
that both Plaintiff and Defendant are citizens of Virginia, granting Defendant’s Motion to Dismiss
for Lack of Jurisdiction is appropriate.
B. Motion to Dismiss for Failure to State a Claim
Because this Court has determined that it lacks subject matter jurisdiction over this matter,
this Court will not address Defendant’s Motion to Dismiss for Failure to State a Claim as it is
moot.
C. Plaintiffs Summary Judgment Motion
Similarly, the Court will not address Plaintiffs Summary Judgment Motion because this
Court does not have jurisdiction over this action. Therefore, Plaintiff s Summary Judgment
Motion is denied as moot.
D. Second Motion for Leave to Amend
In her Second Motion for Leave to Amend, Plaintiff moves the Court to enter default
judgment against Defendant because Defendant failed to file its Answer and its Motion to Dismiss
for Failure to State a Claim by the deadline to do so pursuant to Federal Rule of Civil Procedure
12(a)(l)(A)(i).

Dkt. 46, 11-12.

Plaintiff explains that Federal Rule of Civil Procedure

12(a)(l)(A)(i) in general provides, inter alia, that “[a] defendant must serve an answer.. . within
21 days after being served with the summons and complaint....” Fed. R. Civ. P. 12(a)(l)(A)(i).
Accordingly, Defendant should have filed its Answer and motions to dismiss by June 4,2020-21
days after Defendant was served with Plaintiffs Amended Complaint. Dkt. 46, 4,11-12. Instead,
Defendant filed its Answer and Motion to Dismiss for Failure to State a Claim on July 14, 2020,
40 days after the deadline to do so pursuant to Federal Rule of Civil Procedure 12(a)(l)(A)(i) had
passed. Id. at 11-12.

14

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 15 of 18 PagelD# 1077

The Court finds that it need not resolve Plaintiffs Second Motion for Leave to Amend on
its merits. In the July 30, 2020, Order, this Court denied Plaintiffs three motions for default
judgment and first motion for leave to amend. See Dkt. 45. In that July 30,2020 Order, the Court
already rejected the argument for default judgment that Plaintiff now reasserts.

See id.

Consequently, the Court concludes that Plaintiffs Second Motion for Leave to Amend is moot.
E. Motion for Reconsideration and Amended Motion for Reconsideration
Finally, Plaintiff urges the Court to reconsider its Order denying Plaintiffs three motions
for default judgment and her first motion for leave to amend. Dkt. 48; see Dkt. 45. First, Plaintiff
maintains that Defendant improperly filed its Answer and Motion to Dismiss for Failure to State
a Claim on July 14, 2020, 40 days after the deadline for doing so pursuant to Fed. R. Civ. P.
12(a)(l)(A)(i) had expired. Dkt. 48,21. Second, Plaintiff asserts that Defendant waived its Rule
12(b)(6) defense of failure to state a claim upon which relief can be granted by failing to assert
that defense in conjunction with its preliminary Motion to Dismiss for Lack of Jurisdiction. Id. at
16-20; see Fed. R. Civ. P. 12(g)(2). Plaintiff explains that a defendant only has two options for
raising a defense under Federal Rule of Civil Procedure 12(b): (1) a defendant may raise any and
all of his defenses in the answer, or (2) a defendant may raise any and all of its Rule 12(b) defenses
in a motion filed before the answer. Dkt. 48. Plaintiff thus asserts that Defendant should have
filed its Answer and Motion to Dismiss for Failure to State a Claim alongside its Motion to Dismiss
for Lack of Jurisdiction. Dkt. 48,20.
Defendant counters that its Answer and Motion to Dismiss for Failure to State a Claim
were both properly filed on July 14, 2020, pursuant to Rule 12 of the Federal Rules of Civil
Procedure. Dkt 514 7. Defendant concedes that, typically, Rule 12(a)(4)(A) of the Federal Rules
of Civil Procedure provides that a responsive pleading is due “within 21 days after being served

15

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 16 of 18 PagelD# 1078

with the summons and complaint.” Id. at f 2. However, pursuant to Rule 12(a)(4)(A) of the
Federal Rules of Civil Procedure, “[u]nless the court sets a different time,” if the Defendant
“serv[es] a motion under this rule [the deadline to file an Answer is altered] as follows: if the court
denies the motion or postpones its disposition until trial, the responsive pleading must be served
within 14 days after the notice of the court’s action.” Fed. R. Civ. P. 12(a)(4)(A).
Here, on June 2, 2020, Defendant filed its Motion to Dismiss for Lack of Jurisdiction
pursuant to Rule 12(b)(1) of the Federal Rules of Civil Procedure. Dkt. 51, Tf 3. Subsequently, on
June 24,2020, the Court entered a Scheduling Order directing all parties to file an Answer within
20 days, thus setting a different time for Defendant to submit its Answer. Id. at^j 5. In compliance
with this Court’s June 24,2020 Scheduling Order, Defendant timely filed an Answer to Plaintiffs
Amended Complaint along with a 12(b)(6) Motion to Dismiss for Failure to State a Claim on July
14,2020. Id. at H 6.
In her Motion for Reconsideration, Plaintiff does not articulate any intervening change in
controlling law or newly discovered evidence such that reconsideration would be proper.
Accordingly, the Court will construe Plaintiff’s motion as being brought “to correct a clear error
of law.” See Hutchinson, 994 F.2d at 1081.
The Court finds that Plaintiff has done nothing more than merely “relitigate [an] argument[]
already considered and rejected by the Court” and raise a new argument that she had the
opportunity to raise with her three motions for default judgment and in her first motion for leave
to amend. Kessler v. Charlottesville, No. 3:19-cv-00044,2020 WL 3302967, at *3 (W.D. Va. June
18,2020); see Pac. Ins. Co., 148 F.3d at 403 (noting that a motion for reconsideration “may not
be used... to raise arguments which could have been raised prior to the issuance of the judgment”).

16

Case l:20-cv-00361-RDA-IDD Document 65 Filed 09/16/20 Page 17 of 18 PagelD# 1079

Here, Plaintiff asks the Court to reconsider an argument that she had already raised in her
three motions for default judgment and first motion for leave to amend: that Defendant improperly
filed its Answer and Motion to Dismiss for Failure to State a Claim 40 days after the deadline for
doing so had passed. Dkt. 48,21. The record reflects that the Court already rejected this argument.
Dkt. 45,2. Moreover, Plaintiff cannot prevail on a motion for reconsideration by now raising for
the first time her argument that Defendant waived its Rule 12(b)(6) defense of failure to state a
claim by failing to join it with its preliminary Motion to Dismiss for Lack of Jurisdiction.
Additionally, in her Amended Motion for Reconsideration, Plaintiff merely reiterates her
arguments contained within her original Motion for Reconsideration. See Dkt. 56.
Therefore, the Court concludes that there was no clear error of law that warrants
reconsideration of its Order denying Plaintiffs first motion for default judgment, second motion
for default judgment, third motion for default judgment, and first motion for leave to amend
IV. CONCLUSION
Accordingly, for the foregoing reasons, it is hereby ORDERED that Defendant’s Motion
to Dismiss for Lack of Jurisdiction (Dkt. 17) is GRANTED;
IT IS FURTHER ORDERED that Defendant’s Motion to Dismiss for Failure to State a
Claim (Dkt. 30) is DENIED as moot;
IT IS FURTHER ORDERED that Plaintiffs Second Motion for Leave to Amend (Dkt. 46)
is DENIED as moot;
IT IS FURTHER ORDERED that Plaintiffs Motion for Reconsideration (Dkt. 48) is
DENIED;
IT IS FURTHER ORDERED that Plaintiffs Motion to Withdraw (Dkt. 52) is DENIED as
moot;

17

Case 1.-20-CV-00361-RDA-IDD Document 65 Filed 09/16/20 Page 18 of 18 PagelD# 1080

IT IS FURTHER ORDERED that Plaintiffs Amended Motion for Reconsideration (Dkt.
56) is DENIED; and
IT IS FURTHER ORDERED that this matter be DISMISSED with prejudice.
To appeal this decision, the movant must file, within (60) days of the date of this Order, a
written Notice of Appeal with the Clerk of this Court. A written Notice of Appeal is a short
statement stating a desire to appeal this Order and noting the date of the Order that he wants to
appeal. The movant need not explain the grounds for appeal unless directed by the Court. Failure
to file a timely Notice of Appeal waives movant’s right to appeal this decision.
The Clerk is directed to forward copies of this order to counsel of record and Plaintiff at
her address of record.
It is SO ORDERED.
Alexandria, Virginia
September/a 2020

/sf

Rossie D. Alston, Jr. 7^
United States District Judge

18

Case l:20-cv-00361-RDA-IDD Document 73 Filed 09/25/20 Page 1 of 3 PagelD# 1239

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
DORA L. ADKINS,
Plaintiff,
v.
DULLES HOTEL CORPORATION,
Defendant.

)
)
)
)
)
)
)
)
)

Civil Case No. l:20-cv-00361

ORDER
This matter comes before the Court on Plaintiff Dora L. Adkins’s (‘’Plaintiff”) Motion for
Leave from Court for Reconsideration (“Motion for Reconsideration”). Dkt. 71. Considering the
Motion for Reconsideration, it is hereby ordered that the same is DENIED.
In her Motion for Reconsideration, Plaintiff takes issue with this Court’s September 16,
2020 Order wherein the Court granted Defendant Dulles Hotel Corporation’s (“Defendant”)
Motion to Dismiss on the basis of lack of subject matter jurisdiction. See Dkt. 65. As this Court
explained in that Order, the Court was constrained to dismiss this action because this Court lacks
subject matter jurisdiction over this case. See Dkt. 65 (“Accordingly, because the Court finds that
both Plaintiff and Defendant are citizens of Virginia, granting Defendant’s Motion to Dismiss for
Lack of Jurisdiction is appropriate.”).
Yet, Plaintiff has filed the instant Motion for Reconsideration, essentially arguing that the
Court erred in granting Defendant’s Motion to Dismiss because Defendant’s “principle office is
not [t]he Hilton Washington Dulles Airport located at 13869 Park Center Rd., Herndon, Virginia.”
Dkt. 71, 3. Instead, Plaintiff maintains that Defendant’s principle place of business is “433
California St[., ]7th Floor, San Francisco, CA, 94104-2011, USA[.f Id. This is the same

Case l:20-cv-00361-RDA-IDD Document 73 Filed 09/25/20 Page 2 of 3 Page ID# 1240

argument Plaintiff advanced in her Opposition to Defendant’s Motion to Dismiss, Dkt. 20-1,2-6
and which this Court rejected, Dkt. 65,12-13. Accordingly, Plaintiffs Motion for Reconsideration
is meritless. See Dickerson, 971 F. Supp. at 1024 (citing Above the Belt, Inc. v. Mel Bohannon
Roofing, Inc.) 99 F.R.D. 99,101 (E.D. Va. 1983)) (finding that it is not appropriate for a party to
move for reconsideration to request a court to “rethink what the [c]ourt ha[s] already thought
through—rightly or wrongly”).
The Court recognizes that Plaintiffis a pro se litigant, and under traditional circumstances,
such designation might warrant a significant degree of latitude. However, the Court in its
September 16, 2020 Order specifically explained to Plaintiff that a motion for reconsideration is
not the appropriate vehicle by which to reiterate an argument that the Court has already considered
and rejected.
Further, in that same Order, bearing in mind Plaintiffs history of filing frivolous pleadings
in this matter, the Court warned Plaintiff not to submit frivolous motions. Dkt. 65, 10. In the
September 16,2020 Order, this Court observed that:
Plaintiff [had] [) filed a series of motions for default judgment, contending that .
Defendant improperly filed its Answer and its Motion to Dismiss for Failure to
State a Claim 40 days after the Fed. R. Civ. P. 12(aXl)(A)(i) deadline had elapsed.
See Dkt. Nos. 26; 35; 38; 43, On July 30,2020, the Court entered an Order denying
each of these motions. Dkt. 45. Later that same day, though, Plaintiff filed her
Second Morion for Leaveto Amend, wMchteiteraM ihe arguments set forth in her
three previously-filed motions for default judgment and her first motion for leave
to amend. Dkt. 46. Additionally, Plaintiff filed her Motion for Reconsideration,
urging the Court to find Defendant in default because Defendant should have
submitted its Answer mid Motion to Dismiss for Failure to State a Claim alongside
its preliminary motion to dismiss before the purported June 4,2020 deadline. Dkt
48.

Dkt. 65,10. The Court also noted that, “Plaintiff’s filings in the instant case fit squarely within
her pattern of filing frivolous pleadings and motions in federal and state courts in Virginia. ” Id. at
11 (citing Adkins v. HBL, LLC, No. l:17-cv-774, 2017 WL 4484259 (E.D. Va. Aug. U, 2017);
2

Case l:20-cv-00361-RDA-IDD Document 73 Filed 09/25/20 Page 3 of 3 Page ID# 1241

Adkins v. Pub. Storage, No. I:16~cv-1556,2017 WL 3449583 (E.D. Va. Jan. 24,2017); Adkins v.
Whole Foods Mkl. Grp., Inc,,No. 1:16-cv-00031, 2016 WL 1367170 (E.D. Va. Apr. 5,2016);see
also Adkins v. CP/IPERS Arlington Hotel LLC, 799 S.E.2d 929, 930 (Va. 2017) (observing that
Plaintiff “has filed at least 41 pro se civil actions in the circuit courts of Northern Virginia,
including 20 cases in the Circuit Court of Fairfax County, 17 cases in the Circuit Court of the City
of Alexandria, and four cases in the Circuit Court of Arlington County”)). In light of these seriatim
and frivolous filings in this matter and in others, the Court cautioned “Plaintiff against continuing
to fiie such frivolous pleadings and motions, as doing so may result in- this Court imposing
sanctions against Plaintiff pursuant to Federal Rule of Civil Procedure 11(c).” Dkt. 65,11 (citing
Fed. R. Civ. P. 11(c)).
This Court reiterates that cautionary guidance and adds that should Plaintiff continue to
file meritless motions despite this case being closed, this Court may also enter a prefiling injunction
against Plaintiff as it pertains to this matter.
Accordingly, for the reasons above, it is hereby ORDERED that Plaintiff s Motion for
Reconsideration (Dkt. 71) is DENIED.
It is SO ORDERED.
Alexandria, Virginia
Septeinber^^sTOiQ

M

Rossie D. Alston, Jr.
United States District Judge

3

Appendix C - Relevant State Statutory and Rule Provisions:
Diversity Jurisdiction pursuant to 28 U.S.C. § 1332.
Synopsis of Rule of Law. “The term “principal place of business” in the federal
diversity jurisdiction statute means the location from which the major activities of
the corporation are directed, coordinated, and controlled by the high-level officers of
the corporation.”
Issue. “The question is whether the phrase “principal place of business” in the federal
diversity jurisdiction statute refers to the place which serves as headquarters or the
center of operations planning.”

22

